February 14, 2002

PAUL E. VOGEL
VICE PRESIDENT, NETWORKS OPERATIONS MANAGEMENT

KEITH STRANGE
VICE PRESIDENT, PURCHASING AND MATERIALS

SUBJECT:	 Management Advisory – Transportation of Anthrax Contaminated Mail
          (Report Number TD-MA-02-001)

This report presents the results of our self-initiated review of the transportation of mail
potentially contaminated with anthrax (Project Number 02YG002TD000).

Background

In response to the anthrax attacks in the fall of 2001, the Postal Service contracted with
facilities in Lima, Ohio, and Bridgeport, New Jersey, to sanitize the mail. The Office of
Inspector General reviewed the process for transporting mail to those facilities and
returning it to the mail stream.

Objective, Scope, and Methodology

We reviewed the procedures used to transport mail from the Brentwood Mail Processing
Center in Washington, D.C. to Lima, Ohio, and from the Trenton, New Jersey
processing center to Bridgeport, New Jersey. We interviewed Postal Service officials at
Postal Service Headquarters, the Brentwood center, and the Trenton center. We also
reviewed transportation records at the headquarters of the contractor transporting the
mail from Brentwood to Lima, and records at Trenton, for transporting mail by Postal
Service vehicle from Trenton to Bridgeport. We conducted our review from
November 2001 through February 2002, in accordance with the President’s Council on
Integrity and Efficiency, Quality Standards for Inspections. We discussed our
conclusions and observations with appropriate management officials and modified our
report accordingly.




                                     Restricted Information
Transportation of Anthrax Contaminated Mail                                       TD-MA-02-001




Results

We understand the Postal Service’s need to expedite the transportation of mail to be
irradiated. However, we identified some transportation issues that the Postal Service
should address before transporting additional mail.

Improperly Transported Contaminated Mail. The Postal Service improperly
transported hazardous material using Postal Service vehicles from Trenton,
New Jersey, to Bridgeport, New Jersey. Specifically, Postal Service vehicles were not
designed or intended for the transportation of hazardous material. Further, the Postal
Service vehicles were operated by drivers who had not received appropriate training in
the movement of hazardous material as required by Code of Federal Regulations,
Title 49, Transportation, Part 177. This situation occurred because local Postal Service
officials from New Jersey and the New York Metro Area were not aware of
transportation requirements pertaining to hazardous material. Headquarters personnel
told us they were aware of the situation in New Jersey, but explained they were waiting
for transportation requirements to be submitted by local officials. Initially, local officials
decided to use Postal Service vehicles to transport the potentially contaminated mail,
and did not submit requirements to headquarters. After headquarter’s officials
discovered this situation, they directed local officials to stop using Postal Service
vehicles for transporting mail to the irradiation facility in order to ensure compliance with
the Code of Federal Regulations. We believe that confusion or misunderstanding about
hazardous material transportation requirements could be avoided by instructing area
and local officials on relevant Postal Service policy.

Recommendation 1. We recommend the vice president, Networks Operations
Management, issue guidance to all facilities on what steps to take if contaminated mail
needs transportation.

Management’s Comments. Management agreed with the finding and recommendation
and attached a letter addressed to the managers, Operations Support, and managers,
Distribution Networks, providing specific instructions on the steps to take if they have
contaminated mail that needs transportation in their area. Management noted that the
letter was mailed to the areas on February 6, 2002.

Evaluation of Management’s Comments. Management’s comments are responsive
to our recommendation. We believe the actions taken should correct the issues
identified in our report.




                                                    2
                                         Restricted Information
Transportation of Anthrax Contaminated Mail                                    TD-MA-02-001



Criminal Background Screening Would Improve Security. The Postal Service did
not require criminal background screening for contract drivers transporting mail
potentially contaminated with anthrax. Postal Service officials stated that they did not
require the contractor to comply with Postal Service policy in management instruction
PO-530-91-8, Screening Mailhandling Contract Employees, which restricts use of
personnel with criminal records. Postal Service officials stated that they did not require
compliance with this requirement because the contractor specializes in moving
hazardous material and must meet strict requirements of the Department of
Transportation. We reviewed the Code of Federal Regulation, Title 49 – Transportation,
Chapter III – Federal Motor Carrier Safety Administration, Department of Transportation,
and determined motor carriers are required to investigate drivers’ employment and
driving records, but not their criminal background. In our opinion, criminal background
screening will help ensure the safety and security of the mail.

Recommendation 2. We recommend the vice president, Purchasing and Materials,
require criminal background checks for all contract drivers transporting mail for
irradiation.

Management’s Comments. Management agreed with the intent of the
recommendation but discussed circumstances to be considered. They explained they
followed United States Department of Transportation guidelines when they contracted
for transportation of anthrax contaminated mail and that Title 49, Code of Federal
Regulations does not require contract drivers transporting hazardous material to have
criminal background checks—only a commercial drivers license with a special
hazardous materials endorsement. However, management acknowledged that drivers
delivering mail on highway contract routes are subject to screening requirements.
Notwithstanding their comment, management acknowledged they were aware the
United States Senate was considering an initiative to require criminal background
checks for all holders of commercial drivers licenses and also stated they would refer
our recommendation to the Postal Inspection Service for further guidance.

Evaluation of Management’s Comments. Management’s comments are responsive
to our recommendation. We agree with management’s statement that Title 49, Code of
Federal Regulations does not require contract drivers transporting hazardous material
to have criminal background checks and we acknowledged that in our draft report.
However, we also noted management’s comment that drivers transporting mail on
highway contract routes are subject to screening requirements. While we believe mail
potentially contaminated with anthrax is properly classified as hazardous material, we
also believe it is still mail, and consequently, should receive the same protection as mail
that has not been contaminated. We also feel the extraordinary circumstances
associated with national security since September 11, 2001, warrant additional security,
and that requiring criminal background checks would enhance public confidence in the
Postal Service.




                                                    3
                                         Restricted Information
Transportation of Anthrax Contaminated Mail	                                    TD-MA-02-001



Detention Charges Incurred. The Postal Service spent $181,000 between
October 24 and November 14, 2001, on trailers waiting to be loaded at the Brentwood
and Lima facilities. This situation occurred because the Postal Service initially
overestimated the number of trailers needed and because it did not know its initial
transportation requirements. Consequently, trailers were detained at the facilities
waiting to be loaded. A clause in the contract for transporting mail authorized a charge
of $15 for every 15 minutes a vehicle was delayed or detained. As a result, detention
charges of $181,000 were incurred. We noted that the Postal Service quickly identified
the excess requirements and took action to reduce the number of trailers.

Recommendation 3. We recommend the vice president, Purchasing and Materials,
continue to monitor requirements for additional contracts to transport mail for irradiation
to minimize unnecessary costs.

Management’s Comments. Management agreed with the intent of the
recommendation, acknowledged $181,000 in detention charges, cited unprecedented
circumstances, and stated they had taken appropriate action to manage cost. They
also explained that they had already established objectives to improve the purchasing
process and to strengthen requirement planning for the transportation of contaminated
mail.

Evaluation of Management’s Comments. Management’s comments are responsive
to our recommendation. We believe the actions taken and planned should correct the
issues identified in our report.

We appreciate the cooperation and courtesies provided by your staff during our review.
If you have any questions or need additional information, please contact Joe Oliva,
director, Transportation and Delivery, at (703) 248-2100 or me at (703) 248-2300.



Ronald K. Stith
Assistant Inspector General
 for Core Operations

cc: 	Patrick R. Donahoe
     Richard J. Strasser, Jr.
     J. Dwight Young

     Anthony M. Pajunas

     John R. Gunnels





                                                    4
                                         Restricted Information
Transportation of Anthrax Contaminated Mail                       TD-MA-02-001



                    APPENDIX. MANAGEMENT’S COMMENTS




                                                    5
                                         Restricted Information
Transportation of Anthrax Contaminated Mail                       TD-MA-02-001




                                                    6
                                         Restricted Information
Transportation of Anthrax Contaminated Mail                       TD-MA-02-001




                                                    7
                                         Restricted Information
Transportation of Anthrax Contaminated Mail                       TD-MA-02-001




                                                    8
                                         Restricted Information
Transportation of Anthrax Contaminated Mail                       TD-MA-02-001




                                                    9
                                         Restricted Information
Transportation of Anthrax Contaminated Mail                       TD-MA-02-001




                                                   10
                                         Restricted Information
